BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound copy
and 40 bound copies of the foregoing Reply Brief in 2186, Axon Enterprise, Inc. v. Federal Trade Commission,
et al., was sent via Next Day Service to the U.S.
Supreme Court, and 3 copies were sent via e-mail and
Next Day service to the following parties listed below,
this 6th day of October, 2021:
Brian H. Fletcher
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondents
Paul D. Clement
Counsel of Record
Erin E. Murphy
Matthew D. Rowen
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(8ooi 890.5001

Suite 102

www.beckergallagher.com

Cincinnati , Ohio 45249

1300 I Street, NW, Suite 400E
Washington, DC 20005

Pamela B. Petersen
Axon Enterprise, INC.
17800 N. 85th Street
Scottsdale, AZ 85255
(623) 326-6016

Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 6, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

7

